                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

     Case Number:                                                                               Page 1 of 1



          We received an allegation1that the NSF proposai2submitted by the subject contained text copied
          from another previously submitted NSF proposal by another PI.^

           Our review showed that the subject did review the previous submitted NSF proposal. We
           determined that a small amount of text in the subject's proposal appeared to be somewhat similar
           in its organization to text in the earlier submitted NSF proposal. We contacted the subject who
           explained that the text had not been copied and that a copy of the earlier proposal had not been
           retained or used. However, because the subject's response did not I l l y document and explain
           how the apparently similarly organized text appeared in both proposals, we referred the inquiry to
           the subject's institution.

          The institution's inquiry determined that the apparently similarly organized text had been used by the
          subject prior to her receipt of the earlier proposal for review. Further, the inquiry showed that the
          organization was not particularly surprising given the very narrow area of study present in both
          proposals. The Committee concluded that there was not sufficient reason to believe that any form of
          misconduct occurred, recommending that the matter be closed.

11        We concurred with the institution's inquiry report. This case is closed and no hrther action w
          taken.
                                                                                                       il
                                                                                                        l be




 NSF OIG Form 2 (1 1/02)
